audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Town of Hampden, Massachusetts, Western Massachusetts Law Enforcement Council
GR-70-00-016
July 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Town of Hampden, Massachusetts, Western Massachusetts Law Enforcement Council (the Consortium).  The purpose of the grant is to enhance community policing.  The Consortium was awarded a total of $1,500,000 for the purchase of equipment and technology that will allow its members to redeploy the equivalent of 79 existing full-time officers to community policing activities.
	
	
	We reviewed the Consortium's compliance with five essential grant conditions.  We found weaknesses in three of the conditions tested and could not make a determination about one condition.  As a result, we question $1,500,000 received by the grantee. 1

The grant period had ended and the Consortium had not met its local match requirement.  However, this requirement will be met once outstanding contractor invoices are paid.

	The grant period had ended and the project was not fully operational.  Additionally, the grantee had not started tracking redeployment even though all the equipment had been purchased and some sites were operational. 

	The Financial Status Reports were not accurate and were not submitted timely.

	We could not determine if the grantee enhanced community policing because of the lack of specificity in the grant application and the lack of redeployment tracking. 
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in 
Appendix I.
	


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and the definition of questioned costs.